                             OFFICE OF
                      THE INSPECTOR GENERAL


                          U. S. NUCLEAR
                     REGULATORY COMMISSION



                       Audit of AID-Funded Activities

                      OIG-02-A-04      December 3, 2001




                          AUDIT REPORT




All publicly available OIG reports (including this report) are accessible through
                               NRC’s website at:
                     http://www.nrc.gov/NRC/OIG/index.html
                                               December 3, 2001




MEMORANDUM TO:                 William D. Travers
                               Executive Director for Operations

                               Janice Dun Lee
                               Director, Office of International Programs



FROM:                          Stephen D. Dingbaum/RA/
                               Assistant Inspector General for Audits


SUBJECT:                       AUDIT OF AID-FUNDED ACTIVITIES (OIG-02-A-04)


Attached is the Office of the Inspector General’s audit report titled, Audit of AID-Funded
Activities.

This report reflects the results of our audit to determine whether NRC has adequate
management controls in place to manage the AID-funded assistance programs for Russia,
Ukraine, Armenia, and Kazakhstan. The audit found that NRC recently made program
improvements in a number of areas that reflect positively on the program’s management.
However, further improvements in the program’s management controls are needed.
Specifically, the program would benefit from (1) better oversight of the full scope of its activities,
(2) a formal approval process for new implementing agreements with other countries, and (3)
improved internal coordination and communication. As a result, NRC needs to develop and
implement detailed policies and procedures as well as a strategic plan for the program.

At an exit conference held on November 7, 2001, NRC officials generally agreed with the
report’s findings and recommendations. While agency officials chose not to provide a formal
written response for inclusion in the report, they did provide editorial suggestions, which have
been incorporated where appropriate.

If you have any questions, please contact Tony Lipuma at 415-5910 or me at 415-5915.

Attachment: As stated

cc:     John Craig, OEDO
R. McOsker, OCM/RAM
B. Torres, ACMUI
G. Hornberger, ACNW
G. Apostolakis, ACRS
J. Larkins, ACRS/ACNW
P. Bollwerk III, ASLBP
K. Cyr, OGC
J. Cordes, OCAA
S. Reiter, CIO
J. Funches, CFO
P. Rabideau, Deputy CFO
D. Rathbun, OCA
W. Beecher, OPA
A. Vietti-Cook, SECY
W. Kane, DEDR/OEDO
C. Paperiello, DEDMRS/OEDO
P. Norry, DEDM/OEDO
M. Springer, ADM
R. Borchardt, NRR
G. Caputo, OI
P. Bird, HR
I. Little, SBCR
M. Virgilio, NMSS
S. Collins, NRR
A. Thadani, RES
P. Lohaus, OSP
F. Congel, OE
M. Federline, NMSS
R. Zimmerman, RES
J. Johnson, NRR
H. Miller, RI
L. Reyes, RII
J. Dyer, RIII
E. Merschoff, RIV
OPA-RI
OPA-RII
OPA-RIII
OPA-RIV
                                                                     Audit of AID-Funded Activities


EXECUTIVE SUMMARY

    BACKGROUND

    The Foreign Assistance Act of 1961, as amended, and the Freedom Support Act contain
    the funding authority to provide nuclear regulatory assistance to countries of the former
    Soviet Union (FSU). For fiscal years 1992 through 2001, the U. S. Agency for
    International Development (AID) provided the U. S. Nuclear Regulatory Commission
    (NRC) approximately $38,950,000 in funding for assistance programs for Russia,
    Ukraine, Armenia, and Kazakhstan. The objective of these assistance programs is to
    increase the capacity and stature of each country’s regulatory body to ensure the
    operational safety of their Soviet-designed reactors.

    PURPOSE

    The objective of the audit was to determine whether NRC has adequate management
    controls in place to manage the AID-funded assistance programs for Russia, Ukraine,
    Armenia, and Kazakhstan.

    RESULTS IN BRIEF

    NRC has recently made program improvements in a number of areas. Specific
    progress includes, but is not limited to, (1) substantially reducing the amount of
    unobligated funds that had to be returned to the U. S. Treasury, (2) requesting and
    receiving AID preapproval to use carryover funds in increasing amounts to avoid funding
    lapses, (3) consolidating program responsibilities into the Office of International
    Programs (OIP), and (4) establishing an International Council comprised of NRC
    executives to ensure a focused integrated international program.

    While these improvements reflect positively on the program’s management, further
    improvements in the program’s management controls are needed. Specifically, the
    program would benefit from (1) better oversight for the full scope of its activities, (2) a
    formal approval process for new implementing agreements with other countries, and (3)
    improved internal coordination and communication. These conditions exist because OIP
    does not have detailed policies or procedures to address these control issues and
    considers the need for them to be a low priority. Effective implementation of these
    improvements will make the program less susceptible to fraud, waste, and
    mismanagement.

    Additionally, NRC has not developed a strategic plan for the program, as recommended
    by the U. S. General Accounting Office (GAO).

    RECOMMENDATIONS

    This report makes five recommendations to the Director, OIP, in coordination with the
    Executive Director for Operations. Four recommendations are made to strengthen
    controls and one recommendation addresses the need to complete action on the GAO
    recommendation.

                                             i
                                   Audit of AID-Funded Activities




[Page intentionally left blank.]




               ii
                                                        Audit of AID-Funded Activities


ABBREVIATIONS AND ACRONYMS

    DCPM        Division of Contracts and Property Management

    AID         U. S. Agency for International Development

    EDO         Executive Director for Operations

    FSU         former Soviet Union

    FY          fiscal year

    GAO         U. S. General Accounting Office

    NRC         U. S. Nuclear Regulatory Commission

    OGC         Office of the General Counsel

    OIG         Office of the Inspector General

    OIP         Office of International Programs

    OMB         Office of Management and Budget




                                 iii
                                   Audit of AID-Funded Activities




[Page intentionally left blank.]




               iv
                                                                                               Audit of AID-Funded Activities


TABLE OF CONTENTS

    EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

    ABBREVIATIONS AND ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii

    I.   BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

    II. PURPOSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

    III. FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

              A. PROGRAM IMPROVEMENTS MADE SINCE
                 OIG AND GAO REVIEWS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2


              B. MANAGEMENT CONTROLS NEED IMPROVEMENT . . . . . . . . . . . . . . . . . 3


              C. GAO RECOMMENDATIONS ARE NOT FULLY IMPLEMENTED . . . . . . . . 6

    IV. CONSOLIDATED LIST OF RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . 8


    APPENDIX

              A. SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9




                                                             v
                                   Audit of AID-Funded Activities




[Page intentionally left blank.]




               vi
                                                                  Audit of AID-Funded Activities


I. BACKGROUND

        The Foreign Assistance Act of 1961, as amended, and the Freedom Support Act
        contain the funding authority to provide nuclear regulatory assistance to
        countries of the former Soviet Union (FSU). For fiscal years 1992 through 2001,
        the U. S. Agency for International Development (AID) provided the U. S. Nuclear
        Regulatory Commission (NRC) approximately $38,950,000 in funding for
        assistance programs for Russia, Ukraine, Armenia, and Kazakhstan. The
        following chart shows a breakdown of funding by country, as provided by NRC.


                           AID Support to NRC
                 Fiscal Years 1992 through 2001 Funds
                         (Dollars in Thousands)

                                                Armenia
                                                             Kazakhstan
                                                $3,465
              Ukraine                                      $3,445
             $17,763



                                                           $14,277
                                                            Russia




        The objective of these assistance programs is to increase the capacity and
        stature of each country’s regulatory body to ensure the operational safety of their
        Soviet-designed reactors.

        NRC’s program for providing foreign assistance is contained in the agency’s
        International Nuclear Safety Support strategic arena. This strategic arena
        includes responsibility for international nuclear safety and regulatory policy
        formulation, import/export licensing for nuclear materials and equipment, treaty
        implementation, international information exchange, international safety and
        safeguards assistance, and deterring nuclear proliferation. To accomplish this
        effort, NRC requested funding of $5.1 million and 39 full time equivalent
        positions for fiscal year (FY) 2002. Of those amounts, NRC’s Office of
        International Programs (OIP), which oversees the agency’s international
        program, has a projected budget of $3.1 million and 25 full-time equivalent
        positions for FY 2002. The balance of funding and staff is designated for other
        NRC offices, which supplement OIP’s efforts.



                                         1
                                                                        Audit of AID-Funded Activities


II. PURPOSE

             The objective of the audit was to determine whether NRC has adequate
             management controls in place to manage the AID-funded assistance programs
             for Russia, Ukraine, Armenia, and Kazakhstan. Appendix A contains the scope
             and methodology of this review.

III. FINDINGS

             NRC has recently made several program improvements to address Office of the
             Inspector General (OIG) and U. S. General Accounting Office (GAO) concerns,
             and to better manage the NRC’s AID-funded FSU program. However, additional
             improvements are needed to establish effective management controls. OIP also
             needs to develop a strategic plan for NRC’s nuclear safety assistance activities,
             as recommended by GAO.

      A.     PROGRAM IMPROVEMENTS MADE SINCE OIG AND GAO REVIEWS

             During FY 1998, the OIG issued a report on NRC’s assistance programs for
             Russia, Ukraine, Kazakhstan, and Armenia. That report noted two issues that
             affected the program’s efficiency: (1) two offices each had program
             responsibilities that created the potential for duplication, and (2) AID’s method for
             reallocating funds impaired program activities.

             In April 2000, GAO issued a report1 that expressed concerns about the
             continuing operation of Soviet-designed nuclear power reactors. GAO made
             recommendations to the Secretary of Energy and the NRC Chairman to improve
             the management of the nuclear safety assistance program and maximize the use
             of program funds. GAO made four recommendations to the NRC Chairman.
             These recommendations included integrating program office responsibilities (into
             a single office) and improving how NRC monitors the program’s funding
             requirements.

             NRC has recently made program improvements in many of these areas.
             Specific progress includes, but is not limited to, (1) substantially reducing the
             amount of unobligated funds that had to be returned to the U. S. Treasury, (2)
             requesting and receiving AID preapproval to use carryover funds in increasing
             amounts to avoid funding lapses, (3) consolidating program responsibilities into
             OIP, and (4) establishing an International Council comprised of agency
             executives to ensure a focused integrated international program.




       Nuclear Safety -- Concerns With the Continuing Operation of Soviet-Designed Nuclear
       1

Power Reactors, GAO/RCED-00-97, April 2000.

                                               2
                                                                       Audit of AID-Funded Activities



      B. MANAGEMENT CONTROLS NEED IMPROVEMENT

             The FSU program would benefit from making improvements to management
             controls. Controls, as defined by the Office of Management and Budget (OMB),
             are developed to ensure that programs achieve intended results and maintain
             their integrity. The program would benefit from (1) better oversight for the full
             scope of its activities, (2) a formal approval process for new implementing
             agreements with other countries, and (3) improved internal coordination and
             communication. These conditions exist because OIP does not have detailed
             policies or procedures to address these control issues and considers the need
             for them to be a low priority. Effective implementation of these improvements
             will make the program less susceptible to fraud, waste, and mismanagement.

             Guidance promulgated by both OMB and GAO serves as criteria that should
             heighten OIP management’s awareness of the need for cost-effective
             management controls in day-to-day program operations. OMB Circular No.
             A -123, “Management Accountability and Control,” revised June 21, 1995,
             encourages agency managers to continuously monitor and improve the
             effectiveness of management controls associated with their programs. The
             circular states:

                    Management controls are the organization, policies, and
                    procedures used to reasonably ensure that (i) programs achieve
                    their intended results; (ii) resources are used consistent with
                    agency mission; (iii) programs and resources are protected from
                    waste, fraud, and mismanagement; (iv) laws and regulations are
                    followed; and (v) reliable and timely information is obtained,
                    maintained, reported, and used for decision making.

             In addition, GAO’s internal control standards2 explain that internal controls are a
             key factor in helping program managers to achieve agencies’ missions, program
             results, and minimize operational problems.

             FSU Program Oversight Needs Improvement

             OIP management has not established routine procedures covering all aspects of
             management and oversight of its FSU program. OIP staff could not summarize
             or provide the status of all the individual projects that comprise the program or
             the issues related to each project. For example, OIP has not compiled a list or
             matrix that concisely identifies and consolidates the program’s active work
             (contracts/implementing agreements). Ideally, a list/matrix of active work would
             include a brief description of each contract/agreement and contain such


        2
          Standards for Internal Control in the Federal Government,” GAO/AIMD-00-21.3.1,
November 1999.

                                              3
                                                         Audit of AID-Funded Activities



information as contract type, period of performance, key financial information,
status, and any known problems. Periodic reporting of this type of information
would provide a routine means by which OIP management could monitor the
progress of individual projects that comprise the program. Moreover, periodic
reporting facilitates comparisons of data that can lead to early identification of
adverse trends or other unsatisfactory conditions. This, in turn, fosters prompt
risk assessments, which can lead to necessary and timely actions to prevent
small problems from becoming large problems. Clearly, to be optimally effective,
OIP staff and management must have a routine means of tracking the status of
the program’s ongoing projects.

OIP officials indicated that annual memoranda of meetings between NRC
representatives and certain foreign officials provide some control over ongoing
work. Since these memoranda are prepared only annually, they alone are
insufficient for keeping OIP management timely informed of developments
concerning the ongoing projects throughout the year.

A Formal Approval Process for Implementing Agreements Is Necessary

Although the agency uses “implementing agreements” as a means to facilitate
assistance to the FSU countries, NRC lacks formal written guidance for the
content, scope, and approval process for these agreements. Although not
defined in any agency policy or guidance, implementing agreements serve as
mechanisms to render assistance to foreign countries.

Implementing agreements are not consistently reviewed or approved by NRC’s
offices that have the most contractual knowledge: the Office of General Counsel
(OGC) and the Office of Administration/Division of Contracts and Property
Management (DCPM). An OGC official expressed concern that OGC may not
routinely be provided all necessary documents/agreements that require OGC
review and approval. The official was unable to assert whether OGC had
reviewed all implementing agreements. This condition heightens the vulnerability
that NRC may sign an inadequately or improperly worded agreement.

DCPM was involved in the review of only one of several implementing
agreements. DCPM’s role in implementing agreements has not been defined for
consistent prospective application. Neither OIP nor DCPM could explain why
DCPM had not reviewed the other agreements. Representatives from OGC and
DCPM agree that NRC needs formal guidance on the process for reviewing and
approving implementing agreements.

The FSU Program Needs Improved Internal Coordination and
Communication

While OIP has overall program oversight, individual projects under this program
are managed by project managers who work in OIP or in various NRC offices

                                4
                                                        Audit of AID-Funded Activities



(such as Incident Response Operations, and the Office of Nuclear Regulatory
Research). However, these project managers do not routinely meet to
exchange information or discuss common problems. Accordingly, project
managers expressed the need for and desire to establish and participate in
project manager counterpart meetings. Upon learning of this from OIG, the
Director, OIP, immediately recognized the merits associated with the idea and
agreed to arrange for such meetings. As an added benefit, implementing the
counterpart meetings will facilitate OIP’s oversight of the work done by the
program offices.

FSU Program Lacks Formal Policies and Procedures

The FSU program lacks adequate management controls because no detailed
policies and procedures exist to establish such controls. OIP recognizes and
agrees with the need for policies and procedures. However, OIP explained that
because of competing workload priorities and resource constraints, a low priority
is accorded to developing and implementing policies and procedures specifically
related to program oversight and the implementing agreement approval process.
Sound management controls should be an integral part of any program, and as
such, according them a low priority is not appropriate. The agency has
recognized the importance of internal controls by making them a critical rating
subelement in senior officials’ performance plans.

Inadequate Controls Threaten Program Success

Inadequate management controls threaten OIP’s ability to accomplish the goals
of the FSU program. With enhanced oversight, OIP can more effectively
manage or coordinate all projects under the FSU program. Routine monitoring
through a comprehensive program guide, such as a list and status of all projects,
would enable OIP to evaluate progress and take prompt action should a project
begin to stray from its initial guidelines. The absence of a formal policy for
approving implementing agreements fosters an environment where
organizational responsibilities are unclear, and implementing agreements may
not contain the requisite legal and technical requirements. Enhanced
coordination and communication among project managers working in OIP and
other offices would create an environment where each office pursues common
goals. Formal policies would provide more structure and discipline to ongoing,
but undefined processes.

Inadequate controls increase the potential for fraud, waste, and mismanagement
and could jeopardize business continuity. Business continuity is threatened
because a change in OIP program managers, combined with the absence of
periodic status reports on active work, could result in serious delays or other
harm to the continued operation of the program.




                                5
                                                              Audit of AID-Funded Activities



     Summary

     The management controls for the FSU program need priority attention. OMB
     and GAO have promulgated authoritative guidance on the need for and
     objectives of sound management controls. A control environment that places a
     high priority on building fundamental management controls into day-to-day
     processes lessens opportunities for operational problems and helps to ensure
     programmatic success. Assigning management controls a low priority because
     of other work or resource constraints runs counter to the basic objectives of
     effective program management. Management controls are intended to be an
     integral part of, not an adjunct to, sound program management. Furthermore,
     the agency has recognized the importance of internal controls by making them a
     critical rating subelement in senior officials’ performance plans.

     RECOMMENDATIONS

     OIG recommends that the Director, OIP, in coordination with the Executive
     Director for Operations (EDO):

     1.     Develop a process for tracking the status of the program’s ongoing
            projects.

     2.     Issue formal guidance in a Management Directive or other appropriate
            vehicle that clearly sets forth NRC policy, procedures, and guidance on
            implementing agreements.

     3.     Pending issuance of the formal guidance on implementing agreements,
            issue timely interim guidance.

     4.     Convene quarterly project manager counterpart meetings.


C. GAO RECOMMENDATIONS ARE NOT FULLY IMPLEMENTED

     NRC closed three of the four recommendations included in GAO’s April 2000
     report, Nuclear Safety -- Concerns With the Continuing Operation of Soviet-
     Designed Nuclear Power Reactors, GAO/RCED-00-97. The closed
     recommendations deal with integrating assistance activities, monitoring to
     ensure the timely obligation of funds, and the hiring of in-country interpreters.
     However, action is overdue to develop a strategic plan as GAO recommended.
     OIP management attributes the delay to limited resources. GAO explains that
     without a long-term strategic plan, NRC cannot effectively manage the program.




                                     6
                                                        Audit of AID-Funded Activities



GAO recommended that the NRC Chairman “ . . . develop a strategic plan for the
Commission’s nuclear safety assistance activities that, at a minimum,
establishes program priorities and goals, ways to measure how well the goals
are being met, and time frames for meeting the goals.”

In November 2000, the Director, OIP, advised the Commission that it was
developing the strategic plan and planned to incorporate it into OIP’s FY 2001
Operating Plan by June 30, 2001. The Director, OIP, recently informed OIG that
implementing action was delayed due to limited resources and that action will be
completed by November 30, 2001.

Because AID provides funding for the NRC’s FSU program, OIG asked an AID
official for suggestions to improve the program. The official believes that NRC
should have a framework for measuring the program’s progress. AID would like
to assess the need for continued resources based on the competence or
institutional viability in each country receiving assistance. AID could then
determine the point at which assistance can be reduced, discontinued, or met by
other donors. Completing action on GAO’s recommendation for a strategic plan
would not only address AID’s concern, it would also provide formal program
guidance and direction and result in a more effectively managed program.

RECOMMENDATION

OIG recommends that the Director, OIP, in coordination with the EDO:

5.     Complete final action on the outstanding GAO recommendation
       regarding strategic planning by November 30, 2001.




                                7
                                                                Audit of AID-Funded Activities


IV. CONSOLIDATED LIST OF RECOMMENDATIONS

        OIG recommends that the Director, OIP, in coordination with the EDO:

        1.     Develop a process for tracking the status of the program’s ongoing
               projects.

        2.     Issue formal guidance in a Management Directive or other appropriate
               vehicle that clearly sets forth NRC policy, procedures, and guidance on
               implementing agreements.

        3.     Pending issuance of the formal guidance on implementing agreements,
               issue timely interim guidance.

        4.     Convene quarterly project manager counterpart meetings.

        5.     Complete final action on the outstanding GAO recommendation
               regarding strategic planning by November 30, 2001.




                                        8
                                                                                Appendix A
                                                               Audit of AID-Funded Activities



SCOPE AND METHODOLOGY

        To assess whether the U. S. Nuclear Regulatory Commission (NRC) has
        adequate management controls in place to manage the U. S. Agency for
        International Development - funded assistance programs for the countries of the
        former Soviet Union, the Office of the Inspector General (OIG) reviewed and
        analyzed pertinent program data, authoritative guidance, and prior OIG and U. S.
        General Accounting Office reports which focused on the management of nuclear
        safety assistance. OIG conducted interviews with selected NRC representatives
        and officials from the U. S. Department of State and the U. S. Agency for
        International Development to gain an understanding of the program and to
        determine current issues, problems, or known deficiencies. At NRC
        headquarters, OIG spoke with personnel in the Offices of the Chairman, General
        Counsel, International Programs, Chief Financial Officer, Executive Director for
        Operations, Administration, Nuclear Material Safety and Safeguards, Nuclear
        Regulatory Research, Nuclear Reactor Regulation, and Incident Response
        Operations.

        Management controls related to the audit objective were reviewed and analyzed.
        Throughout the review, auditors were aware of the possibility or existence of
        fraud, waste, or misuse in the program. OIG conducted the audit in accordance
        with Generally Accepted Government Auditing Standards from June through
        September 2001.

        The major contributors to this report were Anthony Lipuma, Team Leader; and
        Steven Zane, Audit Manager.




                                        9
